            OFFICE OF
     THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

       DISABILITY IMPAIRMENTS
  ON CASES MOST FREQUENTLY DENIED
BY DISABILITY DETERMINATION SERVICES
    AND SUBSEQUENTLY ALLOWED BY
     ADMINISTRATIVE LAW JUDGES

      August 2010   A-07-09-19083




 AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                           SOCIAL SECURITY
MEMORANDUM

Date:   August 20, 2010                                                             Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Disability Impairments on Cases Most Frequently Denied by Disability Determination
        Services and Subsequently Allowed by Administrative Law Judges (A-07-09-19083)


        OBJECTIVE
        The objective of our review was to identify the impairments of initial disability cases 1
        most frequently allowed at the Office of Disability Adjudication and Review’s (ODAR)
        hearing level and evaluate the characteristics of these cases.

        BACKGROUND
        The Social Security Administration (SSA) administers two programs that provide
        benefits based on disability: the Disability Insurance program under Title II of the Social
        Security Act (Act) and the Supplemental Security Income program under Title XVI of the
        Act. Disability claims are initially processed through a network of SSA field offices and
        State disability determination services (DDS). DDSs are responsible for developing
        medical evidence and making the initial determination on whether a claimant is legally
        disabled or blind.

        A person who disagrees with an initial determination may request an appeal. The
        appeal consists of several levels of administrative review. The levels of review are
        reconsideration at the DDS and an administrative law judge (ALJ) hearing and Appeals
        Council review at ODAR. 2 If an individual is still dissatisfied, he or she may request
        judicial review by filing an action in Federal court. 3



        1
         We use “initial disability cases” to refer to those cases being decided based on an initial disability
        application and not those cases being decided based on a continuing disability review.
        2
         During our audit period, there were 10 prototype States where the reconsideration level of review was
        eliminated.
        3
            SSA, POMS, GN 03101.001.
Page 2 - The Commissioner

A large percentage of appealed denial determinations made by DDSs are subsequently
allowed at the ALJ hearing level. 4 For our review, we identified the four impairments
that were most often denied by DDSs in Calendar Years (CY) 2004 through 2006, 5
appealed to the hearing level, and subsequently allowed (see Table 1). 6

                                      Table 1
          Four Impairments Most Frequently Denied by DDSs and Subsequently
                            Allowed at the Hearing Level
                             Number     DDS      Number of    Hearing Level
             Impairment       of DDS Denial Hearing Level      Allowance
                              Denials   Rate     Allowances       Rate
          Disorders of Back           744,602      78%           238,903              70%
          Osteoarthrosis and
                                      204,652      58%           61,118               70%
          Allied Disorders
          Diabetes Mellitus           165,411      81%           38,174               67%
          Disorders of Muscle,
                                      138,905      80%           34,693               65%
          Ligament, and Fascia

RESULTS OF REVIEW
We analyzed information available in SSA’s systems to identify characteristics of cases
with the four impairments most frequently denied by DDSs and, on appeal,
subsequently allowed at the hearing level. Our analysis disclosed factors that impacted
disability determinations at both the DDS and hearing levels.

•     Claimant age impacted disability determinations at both the DDS and hearing levels.
•     Determinations of claimants’ ability to work resulted in differences at the DDS and
      hearing levels.
•     Claimant representation was more prevalent in cases allowed at the hearing level
      than in cases decided at the DDS level.
•     Cases were allowed at the hearing level based on a different impairment than that
      on which the DDS made its determination.
•     States had both DDS denial rates and hearing level allowance rates above the
      national averages.

4
    Hearing level allowance rates ranged from 61 to 62 percent in FYs 2006 through 2009.
5
  We identified the final denial decision made at the DDS level during CYs 2004 through 2006 for each
impairment. Therefore, if a case was denied initially and at the reconsideration level during CYs 2004
through 2006, we included the case as a DDS denial. However, if a case was denied initially and allowed
at the reconsideration level during CYs 2004 through 2006, we did not include the case in our analysis.
Finally, if a case was denied initially, but the reconsideration determination was made after CY 2006, we
included the case as a DDS denial. See Appendix B for the scope and methodology of our review.
6
 We identified hearing dispositions through the end of FY 2008. Therefore, we only analyzed the DDS
denials that had a hearing decision by the end of FY 2008.
Page 3 - The Commissioner

•     ODAR regions, hearing offices, and ALJs had wide variations in allowance rates. 7

We were not able to determine from our data analysis the extent to which these factors
resulted in a large percentage of appealed DDS denials being allowed at the hearing
level. We also acknowledge that some hearing level allowances may have been due to
other factors. For example, according to SSA, the two main factors that can lead to an
allowance at the hearing level are: (1) the claimant’s condition worsens after the DDS
determination or (2) the claimant obtains additional medical evidence following the DDS
determination that supports the alleged disability at the hearing level. 8 For this review,
we did not corroborate the impact of these factors on the hearing decision.

Since we could not draw definitive conclusions on all of the factors identified during our
analysis, we plan to initiate an audit that will further evaluate the events that occur
between the DDS determination and hearing decision. In that audit, we will perform a
case review that will evaluate the impact the factors identified in this review had on
disability determinations at both the DDS and hearing levels. The review will require the
assistance of SSA staff with medical and technical expertise in evaluating the two main
factors that SSA claims will lead to an allowance at the hearing level—worsening of the
claimant’s condition and procurement of additional medical evidence.

AGE OF CLAIMANT

For the four impairments we analyzed, we found claimants allowed at both the DDS and
hearing levels were more likely to be age 50 or older. 9 At the DDS level, between
43 and 69 percent of claimants age 50 or older was denied while between 89 and
95 percent of claimants under age 50 was denied (see Table 2). Further, between
76 and 80 percent of all claimants age 50 or older who appealed was allowed at the
hearing level for the four impairments we analyzed. However, between 49 and
63 percent of claimants under age 50 who appealed was allowed at the hearing level.




7
 We also performed analysis on additional factors but these factors did not appear to significantly impact
hearing level decisions. See Appendix C for the results of our analysis of these factors for the four
impairments we analyzed.
8
 When asked, SSA could not provide us with a study that would corroborate these two factors as the
main factors leading to an allowance decision.
9
    Analysis is based on the claimant’s age in the year of the DDS determination.
Page 4 - The Commissioner

                                      Table 2
                DDS and Hearing Level Allowances by Age of Claimant
                                              Number Number        Number of
                              Number of       of DDS      of     Hearing Level
                   Age of
      Impairment                 DDS          Denials  Appeals    Allowances
                  Claimant
                            Determinations (Denial     (Appeal    (Allowance
                                               Rate)    Rate)        Rate)
                      Age 50 or                        257,574       138,617     110,311
                                        433,677
     Disorders of       Older                            (59%)         (54%)       (80%)
     Back              Under                           487,028       204,253     128,592
                                        516,125
                       Age 50                            (94%)         (42%)       (63%)
                      Age 50 or                        101,695        47,511      37,254
     Osteoarthrosis                     237,566
                        Older                            (43%)         (47%)       (78%)
     and Allied
                       Under                           102,957        39,646      23,864
     Disorders                          115,371
                       Age 50                            (89%)         (39%)       (49%)
                      Age 50 or                         74,189        29,310      22,176
                                        107,771
     Diabetes           Older                            (69%)         (40%)       (76%)
     Mellitus          Under                            91,222        27,341      15,998
                                         96,320
                       Age 50                            (95%)         (30%)       (59%)
     Disorders of     Age 50 or                         46,488        21,941      16,708
                                         75,293
     Muscle,            Older                            (62%)         (44%)       (76%)
     Ligament, and     Under                            92,417        31,405      17,985
                                         97,271
     Fascia            Age 50                            (95%)         (34%)       (57%)

SSA policy recognizes that as people get older, it becomes easier for them to meet
SSA’s disability requirements. Specifically, SSA’s policy states that if an individual is
age 50 to 54 (closely approaching “advanced age” of 55 or older), age may seriously
affect the individual’s ability to adjust to other work if the individual also has a severe
impairment and limited work experience. Further, SSA considers an “advanced age”
will significantly affect a person’s ability to adjust to other work, giving special
consideration to individuals who are closely approaching age 60. 10

Although claimants age 50 or older were more likely to be allowed than claimants under
age 50 at both the DDS and hearing levels, a large percentage of claimants age 50 or
older who were denied by the DDS and appealed was subsequently allowed at the
hearing level. We plan to initiate an audit that will further evaluate the impact claimant
age has on disability determinations at the DDS and hearing levels. At that time, we will
make recommendations, as appropriate.




10
     20 C.F.R. §§ 404.1563 and 416.963. SSA, POMS, DI 25015.005.A.
Page 5 - The Commissioner

DETERMINATIONS OF ABILITY TO WORK

For the four impairments we analyzed, we found that between 81 and 88 percent of
claimants allowed at the hearing level was previously denied because the DDS
determined the claimants could perform past or other work. 11 However, at the hearing
level, it was determined that these claimants could not work.

Adjudicators at both the DDS and hearing levels follow the same regulations for
determining claimants’ residual functional capacity (RFC), which is used to determine
whether the claimants can work. 12 However, at the DDS, disability examiners receive
more formal vocational training than ALJs and thus independently determine claimants’
RFCs and ability to work. 13 Conversely, at the hearing level, ALJs or attorneys typically
obtain assistance from vocational experts when relating claimants’ RFCs to available
work. 14 In fact, for the four impairments we analyzed, we found 52 to 57 percent of
cases allowed at the hearing level involved a vocational expert.

Adjudicators at each level can make differing assessments of a claimant’s RFC, which
can result in different determinations about the claimant’s ability to work. In fact, a large
percentage of hearing-level allowances was for claimants DDSs previously determined
could work. The audit we plan to initiate will evaluate the reasons for differences in
determinations of claimants’ ability to work at the DDS and hearing levels. At that time,
we will make recommendations, as appropriate.

CLAIMANT REPRESENTATION

SSA could not provide the number of claimants represented at the DDS level.
However, according to SSA, claimant representation at the DDS level is infrequent.
Conversely, we found that the majority of claimants was represented at the hearing
level. In fact, for cases with the four impairments we analyzed, 91 to 94 percent of
claimants allowed had representatives at the hearing level.




11
   In determining whether an individual is disabled, SSA uses a sequential evaluation process where the
following conditions are considered in the order listed: (1) current work activity, (2) any severe
impairment(s), (3) any impairment(s) that meets or equals the medical listings, (4) ability to do past work,
and (5) ability to do other work considering age, education, training, and work experience.
20 C.F.R. §§ 404.1520(a)(4) and 416.920(a)(4). SSA, POMS, DI 22001.001.A.1.
12
 20 C.F.R. §§ 404.1545-1546 and 416.945-946. RFC is the most a claimant can do despite physical or
mental limitations that may affect what individuals can do in a work setting.
13
  Disability examiners can obtain opinions from vocational specialists, but these are typically only used
on more complicated cases. SSA does not have an estimate of the number of DDS determinations that
involved the use of a vocational specialist.
14
  HALLEX I-2-5-50. The audit we plan to initiate will also evaluate the impact of the RFC on disability
determinations at both the DDS and hearing levels.
Page 6 - The Commissioner

Individuals claiming benefits under the Act may appoint an attorney or other qualified
individual to represent them to SSA. 15 According to ODAR, claimant representation
may correlate to hearing level allowances. This may occur because representatives

•     assist claimants in developing medical evidence;
•     pre-screen applicants to identify cases likely to receive allowance decisions;
•     are skilled at noticing additional impairments, especially mental impairments, that
      may not have been alleged at the DDS level; and
•     ensure claimants stay focused at hearings.

Many claimants find it necessary to secure representation at the hearing level to
continue through SSA’s complicated disability process. In fact, a recent Allsup survey
found that 78 percent of claimants experienced barriers to handling the disability
process on their own. 16 Those barriers included reading, understanding, and
completing forms. However, 35 percent of claimants surveyed stated SSA did not
inform them that claimant representation was available at the DDS level.

If claimants with the four impairments we analyzed had representatives earlier in the
disability process, some of them may have received an allowance decision at the DDS
level, saving them time and SSA money. First, the claimants may not have had to go to
the hearing level if they had representatives to assist them with completing SSA’s forms
and providing the necessary evidence at the DDS level. This could have saved some
claimants about 500 days in receiving an allowance decision. 17 In addition, a rightful
allowance at the DDS level would save SSA costs at the hearing level.

According to SSA, approximately 70 percent of all claimants allowed disability benefits
for all impairments was allowed at the DDS level, and the majority of those claimants
was allowed without the assistance of representation. However, when analyzed
individually, three of the four impairments we analyzed had between 46 and 50 percent
of all allowances made at the DDS level. 18 Therefore, claimant representation may
have been beneficial to these claimants earlier in the disability process.




15
     HALLEX I-1-1-1, 20 C.F.R. §§ 404.1700 and 416.1500. SSA, POMS, GN 03910.010.
16
  Allsup is a nation-wide company that acts as a third-party representative to claimants applying for SSA
benefits. Allsup’s September 2009 survey was based on responses from 296 individuals who had been
awarded disability benefits, with Allsup as their representative, after being denied benefits when applying
without a representative (see http://www.allsup.com/portals/4/allsup-claimant-survey-results-final.pdf).
17
     Average processing time at the hearing level ranged from 483 to 514 days in FYs 2006 through 2009.
18
  Approximately 71 percent of all claimants allowed disability benefits for Osteoarthrosis and Allied
Disorders was allowed at the DDS level.
Page 7 - The Commissioner

While SSA is required to notify claimants about the options for attaining
representation, 19 some claimants were not informed at the DDS level. In addition, SSA
indicated obtaining claimant representation at the DDS level is difficult because the
financial incentive for representatives who collect fees is less at the DDS level than at
the hearing level. 20 Finally, since SSA does not maintain the number of claimants at the
DDS level with representation, SSA cannot substantiate whether representation at the
DDS level would result in earlier allowances. Therefore, we recommend SSA collect
information related to claimant representation at the DDS level to determine whether
representation results in earlier allowances. Based on the results of that assessment,
SSA should determine whether additional efforts are needed to ensure claimants are
made aware that claimant representation is available at the DDS level.

DIFFERENT IMPAIRMENT AT ODAR

We found many cases with the four impairments we analyzed were allowed at the
hearing level based on a different impairment than the DDS made its determination on.

•     Disorders of Back – 21 percent of hearing level allowances was based on a different
      impairment. 21
•     Osteoarthrosis and Allied Disorders – 50 percent of hearing level allowances was
      based on a different impairment. 22
•     Diabetes Mellitus – 47 percent of hearing level allowances was based on a different
      impairment. 23
•     Disorders of Muscle, Ligament, and Fascia – 64 percent of hearing level allowances
      was based on a different impairment. 24

At the DDS level, the DDS identifies the claimant’s primary and, in some cases,
secondary impairment. In our analysis, we expected to see that the impairment may
change from the primary impairment to the secondary impairment identified at the DDS

19
   SSA, POMS, GN 03910.030. According to SSA, the requirement to notify claimants about
representation is limited to field office employees. State DDS employees are under no legal requirement
to inform claimants about representation.
20
     20 C.F.R. § 404.1730(b). SSA pays representatives up to 25 percent of claimants’ past-due benefits.
21
   Of the hearing level allowances based on an impairment other than Disorders of Back, 27 percent was
allowed based on Affective/Mood Disorders.
22
  Of the hearing level allowances based on an impairment other than Osteoarthrosis and Allied
Disorders, 38 percent was allowed based on Disorders of Back.
23
   Of the hearing level allowances based on an impairment other than Diabetes Mellitus, 16 percent was
allowed based on Disorders of Back.
24
  Of the hearing level allowances based on an impairment other than Disorders of Muscle, Ligament, and
Fascia, 28 percent was based on Disorders of Back.
Page 8 - The Commissioner

level. However, for at least 70 percent of the cases allowed at the hearing level based
on a different impairment, the impairment was not changed to the secondary impairment
(see Table 3). For example, for cases with Osteoarthrosis and Allied Disorders allowed
based on a different impairment, 79 percent of the hearing level allowances was based
on impairments not identified at the DDS level as a primary or secondary impairment.

                                    Table 3
        Cases Allowed Based on Impairments Not Identified at the DDS Level
                              Number          Number
                                                              Allowed Based
                              Allowed     Allowed Based
                                                              on Impairment
          Impairment         Based on     on Impairment
                                                             Not Identified at
                             Different    Not Identified at
                                                              the DDS Level
                            Impairment     the DDS Level
     Disorders of Back                 50,237               35,249 25                70%
     Osteoarthrosis and                                              26
                                       30,827               24,275                   79%
     Allied Disorders
     Diabetes Mellitus                 18,054               13,698 27                76%
     Disorders of Muscle,
                                       22,281               17,459 28                78%
     Ligament, and Fascia

For the cases where the impairment changed to an impairment that had not been
identified at the DDS level, we identified cases where the impairment was changed from
one of the four physical impairments to a mental impairment. For example, in at least
5 percent of the cases, the impairment changed to Affective/Mood Disorders (see
Table 4). 29 According to SSA, there is a correlation between depression and chronic
pain, which may be present in the impairments we identified. Further, SSA stated that
multiple denials and a lengthy appeals process can cause or add to a person’s
depression.



25
  Of the 35,249 cases denied at the DDS level based on Disorders of Back but allowed at the hearing
level based on an impairment not identified at the DDS level, 17 percent was allowed based on
Osteoarthrosis and Allied Disorders.
26
   Of the 24,275 cases denied at the DDS level based on Osteoarthrosis and Allied Disorders but allowed
at the hearing level based on an impairment not identified at the DDS level, 39 percent was allowed
based on Disorders of Back.
27
   Of the 13,698 cases denied at the DDS level based on Diabetes Mellitus but allowed at the hearing
level based on an impairment not identified at the DDS level, 16 percent was allowed based on Disorders
of Back.
28
   Of the 17,459 cases denied at the DDS level based on Disorders of Muscle, Ligament, and Fascia but
allowed at the hearing level based on an impairment not identified at the DDS level, 28 percent were
allowed based on Disorders of Back.
29
 Affective/Mood Disorder is defined as an emotional disorder involving abnormal highs and/or lows in
mood.
Page 9 - The Commissioner

                                           Table 4
                    Cases Allowed Based on Affective/Mood Disorders
                              Not Identified at the DDS Level
                            Number Allowed         Number Allowed Based            Allowed Based on
                               Based on              on Affective/Mood              Affective/Mood
      Impairment            Impairment Not          Disorders That Was            Disorders That Was
                            Identified at the       Not Identified at the         Not Identified at the
                               DDS Level                 DDS Level                     DDS Level
Disorders of Back               35,249                     4,247                         12%
Osteoarthrosis and
                                  24,275                      1,219                         5%
Allied Disorders
Diabetes Mellitus                 13,698                       927                          7%
Disorders of Muscle,
                                  17,459                      1,010                         6%
Ligament, and Fascia

According to SSA, the four impairments we analyzed are degenerative in nature, which
can result in increased pain over time and can also affect the functioning of other body
systems, resulting in a change in impairment at the hearing level. SSA offered the
following additional reasons allowance decisions may be made at the hearing level
based on different impairments.

•    The impairments were not evident in the file when the DDS made the determination.
•    The impairments may have been new or first alleged at the hearing level.
•    The impairments were alleged at the DDS level, but may have worsened over time
     or more evidence became available.

This review did not determine why a large percentage of claimants denied at the DDS
level was subsequently allowed at the hearing level based on a different impairment.
However, our future audit will determine why hearing level decisions are being made
based on different impairments than the DDS determinations. At that time, we will make
recommendations, as appropriate.

STATE

We identified six States with DDS denial rates greater than the national averages and
hearing level allowance rates greater than the national averages for all four impairments
we analyzed (see Table 5). 30 For example, 80 percent of claimants in Tennessee
alleging Osteoarthrosis and Allied Disorders was denied at the DDS level while DDSs
nationwide denied on average 58 percent of the claimants with this impairment. 31 In


30
   Analysis was based on the State of the servicing field office. Although this may not be the same State
as the claimant’s residence or the DDS making the initial disability determination, we expect any
differences to be immaterial.
31
  See Table 1 for the national average DDS denial rate and hearing level allowance rate for each
impairment.
Page 10 - The Commissioner


addition, of the claimants from Tennessee alleging this impairment who appealed,
81 percent was allowed at the hearing level while, on average, 70 percent of claimants
with this impairment was allowed at the hearing level.

                                       Table 5
     States with DDS Denial Rates and Hearing Level Allowance Rates Greater Than
                        the National Averages by Impairment
                                   Osteoarthrosis and                   Disorders of Muscle,
                 Disorders of Back                    Diabetes Mellitus
                                    Allied Disorders                    Ligament, and Fascia
                          Hearing             Hearing          Hearing              Hearing
       State      DDS               DDS               DDS                  DDS
                            Level              Level            Level                 Level
                  Denial            Denial            Denial              Denial
                         Allowance          Allowance        Allowance             Allowance
                   Rate             Rate              Rate                 Rate
                            Rate               Rate             Rate                  Rate
Alabama            85%      80%      65%       80%     92%      73%        87%        73%
Georgia            88%      74%      77%       76%     91%      74%        90%        69%
Illinois           82%      76%      62%       77%     82%      76%        84%        73%
North Carolina     87%      72%      71%       73%     90%      72%        92%        69%
South Carolina     90%      75%      76%       76%     91%      72%        91%        71%
Tennessee          92%      78%      80%       81%     92%      78%        90%        78%

According to SSA, the percent of claimants who appeal the DDS denial is also an
important factor to consider. Of the six States with higher than average DDS denial
rates and hearing level allowance rates, Alabama and Tennessee consistently had
higher than average appeal rates for each of the four impairments. 32 For example,
54 percent of the claimants in Tennessee appealed the DDS denial for Osteoarthrosis
and Allied Disorders. However, on average, 47 percent of claimants denied at the DDS
level with this impairment appealed the denial. Although the remaining four States had
appeal rates lower than average, we were unable to determine the impact appeal rates
had on hearing level allowance rates. 33

SSA stated it did not have a methodology to identify unique circumstances in these
States that would explain higher than average DDS denial rates and subsequent higher
than average hearing level allowance rates. However, according to an SSA study,
variations in allowance rates may be related to economic and demographic differences




32
  Alabama is a prototype state where appeals are made directly to the hearing level and bypass the
reconsideration step. According to SSA, prototype States have higher appeal rates than non-prototype
States.
33
  Of the six States with higher than average DDS denial rates and hearing level allowance rates, five
States are in the Atlanta Region. In FYs 2005 and 2006, DDS accuracy rates for initial DDS
determinations in the Atlanta Region were 93.4 and 93.0 percent, respectively. The national averages for
the same period were 93.5 and 93.4 percent, respectively. Accuracy rates for FY 2004 are no longer
available by Region.
Page 11 - The Commissioner

among States. 34 In addition, SSA stated that allowance rates may vary based on the
rates of filing for Title II and Title XVI benefits since each program has varying
allowance rates. 35 Finally, SSA stated it is reasonable that a higher denial rate at the
DDS level resulted in higher allowance rates at the hearing level since the impairments
we analyzed are degenerative in nature. Therefore, the record reviewed at the hearing
level is often not the same record reviewed at the DDS level.

We recommend SSA consider conducting a targeted review of disability determinations
made in these six States for the four impairments we analyzed. The review should
determine whether circumstances exist that explain why DDSs in these six States
denied a higher than average percent of claimants and, upon appeal, the hearing offices
subsequently allowed a higher than average percent of the claimants.

LOCATION OF HEARING OFFICE AND ALJ

We identified the ODAR regions with the highest allowance rates for the four
impairments we analyzed. Specifically, we found

•     the Boston Region had the highest allowance rates for Disorders of Back and
      Disorders of Muscle, Ligament, and Fascia;
•     the Atlanta Region had the highest allowance rate for Osteoarthrosis and Allied
      Disorders; and
•     the Seattle Region had the highest allowance rate for Diabetes Mellitus.

In fact, these are the only 3 of ODAR’s 10 regions with allowance rates greater than the
national averages for all four of the impairments. 36 For example, hearing offices in the
Seattle Region had an average allowance rate of 74 percent for cases with Diabetes
Mellitus while hearing offices nationwide allowed an average of 67 percent of cases with
this impairment.

In addition, we identified a wide variance in allowance rates among hearing offices (see
Table 6). For example, one hearing office in the Chicago Region had an allowance rate
of 83 percent for cases with Disorders of Back, but another hearing office in the Chicago
Region had an allowance rate of 45 percent for cases with the same impairment.



34
   SSA Office of Policy, Office of Research, Evaluation, and Statistics; Social Security Disability
Programs: Assessing the Variation in Allowance Rates (ORES Working Paper Series Number 98)
p. 18 August 2002. This report does not specify the economic or demographic differences that may have
resulted in certain States having higher than average DDS denial rates and hearing level allowance rates
(see http://ssa.gov/policy/docs/workingpapers/wp98.pdf).
35
   In the audit we plan to initiate, we will also evaluate the impact differences in filing rates for Title II and
Title XVI impact disability determinations at both the DDS and hearing levels.
36
     See Appendix D for hearing office allowance rates by region for ODAR’s 10 regions.
Page 12 - The Commissioner

                                      Table 6
       Range of Hearing Office Allowance Rates by Region and Impairment 37
                                Osteoarthrosis                  Disorders of
                 Disorders of                     Diabetes
                                   and Allied                 Muscle, Ligament,
     Region         Back                          Mellitus
                                   Disorders                     and Fascia
                     High     Low        High        Low      High     Low        High         Low
Boston               84%      59%        83%         55%      84%      60%        80%          57%
New York             84%      51%        79%         51%      75%      48%        84%          51%
Philadelphia         83%      50%        87%         55%      88%      50%        83%          48%
Atlanta              87%      57%        85%         59%      85%      55%        83%          58%
Chicago              83%      45%        84%         53%      81%      58%        80%          57%
Dallas               78%      46%        80%         43%      79%      43%        75%          46%
Kansas City          81%      55%        82%         55%      76%      56%        74%          47%
Denver               76%      61%        80%         60%      81%      62%        65%          54%
San Francisco        82%      49%        81%         54%      84%      47%        78%          42%
Seattle              84%      66%        82%         66%      80%      66%        80%          61%

In addition to a wide variance in allowance rates by hearing office, there was an even
greater variance in allowance rates by ALJ. For example, one ALJ allowed 97 percent
of his cases with Disorders of Back while another ALJ only allowed 15 percent of his
cases with the same impairment. In fact, for each impairment we analyzed, at least
27 percent of ALJs had allowance rates of 80 percent or higher while at least 9 percent
of ALJs had allowance rates of 50 percent or lower (see Table 7).

                                       Table 7
                         ALJ Allowance Rates by Impairment 38
                                                      Percent of ALJs with
                                          Number
                    Impairment                          Allowance Rates:
                                          of ALJs
                                                       0 - 50%     80 - 100%
       Disorders of Back                             1,095           14%              27%
       Osteoarthrosis and Allied Disorders             231            9%              37%
       Diabetes Mellitus                                55           16%              44%
       Disorders of Muscle, Ligament, and
                                                        64           11%              33%
       Fascia

Such variances in allowance rates among hearing offices and ALJs do not appear to
support other factors that SSA stated may contribute to hearing level allowances for
these impairments, such as the worsening of the condition over time or increased
medical evidence. Specifically, if these factors were prevalent, it is reasonable to
expect to see more consistent allowance rates among all hearing offices and ALJs.


37
  The hearing offices in Table 6 processed at least 100 cases for each impairment. See Appendix D for
the number of cases processed by hearing office for each impairment.
38
  For each impairment, we reviewed the ALJs who processed at least 100 cases to ensure the ALJs
processed a sufficient number for accurate analysis.
Page 13 - The Commissioner

According to SSA, there are too many competing factors to draw accurate conclusions
about variances in allowance rates among hearing offices and ALJs. For example, SSA
stated cases that involve the same impairment will never involve the same evidence,
testimony, or findings. We are not suggesting that the variances in allowance rates
among hearing offices and ALJs resulted in inaccurate hearing level decisions. Further,
we recognize that cases are unique. However, we believe the variances in allowance
rates among hearing offices and ALJs are significant enough to warrant a
recommendation that SSA consider analyzing these variances to determine whether
competing factors are present that support the variances. 39

ADDITIONAL IMPAIRMENTS OFTEN ALLOWED AT HEARING LEVEL
To achieve the objective of our review, we identified the four impairments that were
most often denied by DDSs in CYs 2004 through 2006 and, on appeal, subsequently
allowed at the hearing level. However, in our analysis, we also identified
27 impairments where at least 80 percent of appealed cases was allowed at the hearing
level (see Table 8). Approximately 2 percent of all cases appealed to the hearing level
had 1 of these 27 impairments.

                                       Table 8
        Impairments with 80 Percent or Greater Hearing Level Allowance Rates
                                              Number of DDS         DDS Denial         Hearing Level
                Impairment
                                              Determinations          Rate            Allowance Rate
     Salmonella Bacteremia                          13                 62%                 100%
     Pancreatitis                                    9                 89%                 100%
     Strongyloidiasis                                7                 29%                 100%
     Cardiovascular Syphilis                       105                 50%                  94%
     Squamous Cell Carcinoma of the
                                                     228                 34%                  92%
     Anal Canal or Anal Margin
     Malignant Neoplasm of Pleura                  2,672                  3%                  91%
     Parkinson’s Disease                          12,359                 22%                  89%
     Multiple Myeloma                              6,530                 12%                  88%
     Malignant Neoplasm of Gallbladder
                                                   1,240                   3%                 88%
     and Extrahepatic Bile Ducts
     Secondary Malignant Neoplasm                  1,096                   2%                 88%
     Malignant Neoplasm of Small
                                                   1,896                 15%                  87%
     Intestine
     Liver Transplant                              1,440                 20%                  86%
     Malignant Neoplasm of Trachea,
                                                  60,516                   5%                 85%
     Bronchus, or Lung
     Macroglobulinemia or Heavy Chain                156                 58%                  84%

39
  In December 2009, SSA’s Office of Quality Performance implemented an ongoing review of ALJ
decisions. This review consists of a national random sample of 600 allowances and 600 denials per year,
and includes an analysis of the factors that contribute to allowances at the hearing level. However, the
review is not limited to hearing offices or ALJs with exceptionally high or low allowance rates. In addition,
the review is not limited to cases with the impairments most frequently denied by DDSs and allowed at
the hearing level upon appeal.
Page 14 - The Commissioner

                                    Table 8
     Impairments with 80 Percent or Greater Hearing Level Allowance Rates
                                     Number of DDS     DDS Denial     Hearing Level
             Impairment
                                     Determinations      Rate        Allowance Rate
  Disease
  Multiple Sclerosis                    42,614             47%              84%
  Neuroblastoma                          1,527             10%              83%
  Malignant Neoplasm of Colon,
                                        35,825             26%              82%
  Rectum, or Anus
  Malignant Neoplasm of Maxilla,
                                         3,649             18%              82%
  Orbit, or Temporal Fossa
  Kaposi’s Sarcoma                         142             17%              82%
  Leukemia                              17,959             13%              82%
  Malignant Neoplasm of Skeletal
                                         1,502             19%              81%
  System
  Malignant Neoplasm of Prostate        10,174             41%              80%
  Chronic Renal Failure                 69,836             10%              80%
  Malignant Neoplasm of Stomach          5,830              9%              80%
  Anterior Horn Cell Disease
  (including Amyotrophic Lateral         4,661              1%              80%
  Sclerosis)
  Malignant Neoplasm of Bladder          4,896             25%              80%
  Peripheral Vascular (Arterial)
                                        28,325             29%              80%
  Disease

The majority of these impairments involve Human Immunodeficiency Virus or cancer
impairments, and the remaining impairments are neurological. According to SSA, the
high hearing level allowance rates may have resulted because these types of
impairments worsen over time, and medical evidence may not have been available at
the time of the DDS’ determination.

We did not evaluate the characteristics of cases with these 27 impairments as we did
for cases with the 4 impairments most frequently denied by DDSs and allowed at the
hearing level. Therefore, we are not making recommendations pertaining to these
27 impairments. However, given the high rate of allowances at the hearing level for
these impairments, we are presenting this information for any action SSA deems
appropriate.

CONCLUSIONS AND RECOMMENDATIONS

Of cases that were appealed to the hearing level, over 60 percent was allowed in recent
years. We acknowledge that there are factors that could result in this scenario. For
example, a claimant’s condition can deteriorate such that it meets SSA’s definition of a
severe impairment at the hearing level when it did not at the DDS level.

The SSA components we interviewed stated that disability decisions at the DDS and
hearing levels are made following the same policies. However, as outlined in this
Page 15 - The Commissioner

report, there are differences in the way these levels apply the policies. For example,
DDS adjudicators receive more formal vocational training than ALJs and thus typically
make determinations of ability to work independently. However, ALJs at the hearing
level often obtain the opinions of vocational experts to make determinations on
claimants’ ability to work.

In this review, we identified factors of the four impairments most frequently denied by
DDSs and, on appeal, subsequently allowed at the hearing level that, either alone or in
combination, may impact hearing level decisions. SSA also offered additional reasons
for differences in disability decisions, such as worsening of the claimant’s condition and
procurement of additional medical evidence. However, SSA could not provide us with
any studies that support these reasons. 40 Given the wide differences between the DDS
and hearing level decisions, we plan to conduct additional work to identify the
underlying causes for these differences.

Based on the results of our analysis in this review, we recommend SSA:

1. Collect information related to claimant representation at the DDS level to determine
   whether representation results in more allowances at the DDS level. Based on the
   results of that assessment, determine whether additional efforts are needed to
   ensure claimants are made aware of the availability of claimant representation at the
   DDS level.

2. Consider conducting a targeted review of disability determinations made in the six
   States we identified as having higher than average DDS denial rates and hearing
   level allowance rates for the four impairments we analyzed.

3. Consider analyzing variances between the hearing offices and ALJs with high and
   low allowance rates for the four impairments we analyzed to determine whether
   factors are present that support the variances.

AGENCY COMMENTS

SSA agreed with our recommendations. The Agency’s comments are included in
Appendix E.




                                                         Patrick P. O’Carroll, Jr.

40
   SSA has launched the Integrated Disability Process, the purpose of which is to identify differences and
difficult areas of disability policy and procedures across adjudicatory components. However, the
Integrated Disability Process does not address any of the factors we identified in this report.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Additional Factors Analyzed

APPENDIX D – Hearing Office Allowance Rates by Region

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
Act      Social Security Act
ALJ      Administrative Law Judge
C.F.R.   Code of Federal Regulations
CPMS     Case Processing and Management System
CY       Calendar Year
DDS      Disability Determination Services
HALLEX   Hearings, Appeals, and Litigation Law Manual
ODAR     Office of Disability Adjudication and Review
ODD      Office of Disability Determinations
POMS     Program Operations Manual System
RFC      Residual Functional Capacity
SSA      Social Security Administration
                                                                                       Appendix B

Scope and Methodology
To accomplish our audit objective, we:

•     Reviewed applicable Federal laws and regulations; the Hearings, Appeals, and
      Litigation Law Manual; and Program Operations Manual System related to the
      disability determination process as executed by disability determination services
      (DDS) and administrative law judges (ALJ).

•     Reviewed prior Office of the Inspector General, Government Accountability Office, and
      Social Security Advisory Board reports related to the disability determination process.

•     Obtained data extracts of DDS determinations and hearing dispositions.

          o Obtained a data extract from the SSA-831 file of 7.7 million DDS
            determinations made during Calendar Years (CY) 2004 through 2006. This
            included all (1) initial allowance determinations; (2) reconsideration
            determinations; and (3) initial denial determinations not appealed to, and
            decided at, the reconsideration level during CYs 2004 through 2006. 1 For the
            purposes of this review, we use “initial disability determinations” to refer to
            determinations made on initial disability applications and not determinations
            made on continuing disability reviews.

          o Obtained a data extract from the Office of Disability Adjudication and Review’s
            (ODAR) Case Processing and Management System (CPMS) of 3.3 million
            cases decided at the hearing level or pending a hearing decision between
            December 27, 2003 2 and September 24, 2008. 3

•     Identified the DDS denials appealed to ODAR.

          o Of the 7.7 million DDS determinations, identified 4.7 million denials
            (61 percent).



1
  These 7.7 million determinations were the final determination made on any case during CYs 2004
through 2006. For example, if a case was denied initially and a reconsideration decision was made
during CYs 2004 through 2006, the case is included once in the 7.7 million determinations. Further, if a
case was denied initially and a reconsideration decision was not made during CYs 2004 through 2006 or
the reconsideration level was not applicable, the initial denial is included in the 7.7 million determinations.
2
    December 27, 2003 was the beginning of ODAR’s January 2004 reporting cycle.
3
    September 24, 2008 was the date the data were extracted from CPMS.


                                                     B-1
        o Matched the 4.7 million DDS denials to the 3.3 million CPMS cases and
          identified 1.6 million DDS denials appealed to ODAR (35 percent of DDS
          denials): 4

               530,774 denials (32 percent) were either denied or dismissed at the hearing
                level;
               946,280 denials (58 percent) were allowed at the hearing level; and
               161,282 denials (10 percent) were pending a hearing decision.

•   Identified the impairments on cases with (1) at least 1,000 DDS denials, (2) a DDS
    denial rate of at least 50 percent, and (3) an allowance rate at the hearing level of at
    least 60 percent. Of the impairments that met these criteria, we identified the top
    four impairments appealed to the hearing level (see Table B-1). There were
    372,888 denials on cases with these 4 impairments allowed at the hearing level, which
    accounted for 39 percent of all 946,280 DDS denials allowed at the hearing level.

                                   Table B-1
       Four Impairments Most Frequently Denied by DDSs and Subsequently
                         Allowed at the Hearing Level
                          Number     DDS      Number of    Hearing Level
          Impairment       of DDS Denial Hearing Level      Allowance
                           Denials   Rate     Allowances       Rate
       Disorders of Back            744,602       78%           238,903               70%
       Osteoarthrosis and
                                    204,652       58%           61,118                70%
       Allied Disorders
       Diabetes Mellitus            165,411       81%           38,174                67%
       Disorders of Muscle,
                                    138,905       80%           34,693                65%
       Ligament, and Fascia

•   Interviewed officials in ODAR and the Offices of Disability Determinations (ODD) and
    Disability Programs to obtain information on the factors related to high ODAR
    allowance rates.

•   Analyzed cases with the four impairments we identified above to determine the impact
    certain factors had on hearing level decisions.

•   Identified 27 impairments with allowance rates of 80 percent or higher at the hearing
    level.




4
 We identified hearing dispositions through the end of FY 2008. Therefore, we did not analyze cases
denied at the DDS level that did not have a hearing decision by the end of FY 2008. Further, we did not
analyze the outcome of any cases beyond the hearing level.


                                                  B-2
The entities reviewed were ODD and ODAR. Our work was conducted at the Office of
Audit in Kansas City, Missouri, from February 2009 through January 2010. We
determined the data used in this report were sufficiently reliable given the review objective
and their intended use. We conducted our audit in accordance with generally accepted
government auditing standards.




                                           B-3
                                                                               Appendix C

Additional Factors Analyzed
Based on our analysis, the factors below did not appear to significantly impact hearing
level decisions for the four impairments we analyzed. 1 We acknowledge that these
factors may have contributed to some allowances, but we did not identify apparent
correlations between these factors and hearing level allowances.

•   Number of days between the disability determination services (DDS) and hearing level
    determinations.
•   Change in age category.
•   Education level of the claimant.
•   Determinations of disability onset.
•   Number of years the claimant worked.
•   Purchase of evidence at the DDS level.
•   Consultative examination at the DDS level.
•   Specialty of the reviewing physician at the DDS level.
•   Medical expert at the hearing level.

Number of Days Between DDS and Hearing Level Determinations

We found that more time elapsing between the DDS and hearing level determinations
did not contribute to an allowance at the hearing level. Specifically, for the four
impairments we analyzed, the average number of days between the date of the DDS
determination and the date of the hearing level decision was

•   502 to 515 days for claimants allowed at the hearing level and
•   571 to 581 days for claimants denied or dismissed at the hearing level.

Change in Age Category

According to the Social Security Administration (SSA), because of long wait times at the
hearing level, claimants may reach an older age category that would enable them to
meet the disability requirements. We found that claimants who were allowed at the
hearing level were only slightly more likely to have moved to an older age category by




1
 The four impairments we analyzed were Disorders of Back; Osteoarthrosis and Allied Disorders;
Diabetes Mellitus; and Disorders of Muscle, Ligament, and Fascia. See Appendix B for the Scope and
Methodology of our review.


                                                C-1
the date of the hearing level decision than claimants who were denied at the hearing
level. 2 Specifically, for the four impairments we analyzed,

•   17 to 20 percent of claimants allowed at the hearing level reached an older age
    category by the date of the hearing level decision, and
•   13 to 16 percent of claimants denied at the hearing level reached an older age
    category by the date of the hearing level decision.

Education Level of Claimant

We found that claimants who were allowed at the hearing level and claimants who were
denied or dismissed at the hearing level had similar education levels. Specifically, for
the four impairments we analyzed,

•   58 to 65 percent of claimants allowed at the hearing level had 12 years of education or
    more, and
•   52 to 61 percent of claimants denied or dismissed at the hearing level had 12 years of
    education or more.

Determinations of Disability Onset

According to SSA, hearing level allowances may result when an administrative law
judge determines the claimant became disabled after the date of the DDS denial.
However, for the four impairments we analyzed, only 7 to 10 percent of cases allowed
at the hearing level was determined to have become disabled after the DDS denial date.

Number of Years Claimant Worked

We found that claimants who were allowed at the hearing level and claimants who were
denied or dismissed at the hearing level had comparable years of work activities. 3
Specifically, for the four impairments we analyzed,

•   26 to 29 percent of claimants allowed at the hearing level had worked 15 years or
    less, and
•   24 to 29 percent of claimants denied or dismissed at the hearing level had worked
    15 years or less.




2
 We identified claimants who turned ages 50, 55, or 60 during the appeals process. These are the
minimum ages for the three age categories given special consideration in disability adjudications,
according to 20 C.F.R. §§ 404.1563 and 416.963 and SSA, POMS, DI 25015.005.A.
3
 This analysis is based on limited data. Specifically, SSA did not record the number of years worked for
over 64 percent of the claimants with the four impairments we analyzed.


                                                  C-2
Evidence Purchased at the DDS Level

We found that claimants who were allowed at the hearing level were slightly more likely
to have had medical evidence purchased at the DDS level than claimants who were
denied or dismissed at the hearing level. Specifically, for the four impairments we
analyzed,

•   78 to 81 percent of claimants allowed at the hearing level had medical evidence
    purchased by the DDS, and
•   72 to 75 percent of claimants denied or dismissed at the hearing level had medical
    evidence purchased by the DDS.

Consultative Examination at the DDS Level

We found that claimants who were allowed at the hearing level and claimants who were
denied or dismissed at the hearing level were equally likely to have had a consultative
examination at the DDS level. Specifically, for the four impairments we analyzed,

•   29 to 34 percent of claimants allowed at the hearing level had a consultative
    examination at the DDS level, and
•   31 to 36 percent of claimants denied or dismissed at the hearing level had a
    consultative examination at the DDS level.

Specialty of Reviewing Physician at the DDS Level

We found that most cases we analyzed were reviewed by a physician who specialized
in internal medicine. Further, we found cases that were allowed at the hearing level
were slightly more likely to have been reviewed by a physician with this specialty than
cases that were denied or dismissed at the hearing level. Specifically, for the four
impairments we analyzed,

•   22 to 26 percent of cases allowed at the hearing level were reviewed by a physician
    with a specialty in internal medicine at the DDS level, and
•   20 to 23 percent of cases denied or dismissed at the hearing level were reviewed by a
    physician with a specialty in internal medicine at the DDS level.




                                           C-3
Medical Expert at the Hearing Level

We found that cases allowed at the hearing level were slightly more likely to have a
medical expert involved than cases denied or dismissed at the hearing level.
Specifically, for the four impairments we analyzed,

•   10 to 12 percent of cases allowed at the hearing level involved a medical expert, and
•   8 to 10 percent of cases denied or dismissed at the hearing level involved a medical
    expert.




                                          C-4
                                                                                 Appendix D

Hearing Office Allowance Rates by Region
For each of the 4 impairments we analyzed, we identified the hearing office allowance
rates for the Office of Disability Adjudication and Review’s 10 regions and 142 hearing
offices. 1 For allowance rates by impairment, see:

•   Disorders of Back – Table D-1
•   Osteoarthrosis and Allied Disorders – Table D-2
•   Diabetes Mellitus – Table D-3
•   Disorders of Muscle, Ligament, and Fascia – Table D-4

                                      Table D-1
                                 Disorders of Back
                       National Average Allowance Rate – 70%
                                   Number of      Number of                      Allowance
               Location
                                  Dispositions   Allowances                         Rate
      Boston Region                          12,436              9,489               76%
      Regional Office Staff                      20                 20              100%
      Manchester, NH                          1,699              1,419               84%
      Portland, ME                            1,807              1,506               83%
      Boston, MA                              3,135              2,497               80%
      Hartford, CT                            1,393              1,093               78%
      Springfield, MA                         1,731              1,306               75%
      New Haven, CT                           1,137                755               66%
      Providence, RI                          1,514                893               59%
      New York Region                        30,209             21,846               72%
      Regional Office Staff                       1                  1              100%
      Jericho, NY                             3,127              2,638               84%
      Voorhees, NJ                            2,323              1,912               82%
      Mayaguez, PR                              612                487               80%
      Brooklyn, NY                            1,901              1,507               79%
      San Juan, PR                            3,322              2,611               79%
      Ponce, PR                                 866                669               77%
      Albany, NY                              2,524              1,830               73%
      Bronx, NY                               1,324                929               70%
      Newark, NJ                              3,023              2,057               68%
      Buffalo, NY                             2,897              1,927               67%
      White Plains, NY                        1,784              1,180               66%
      New York, NY                            2,471              1,629               66%
      Syracuse, NY                            3,093              1,988               64%
      Queens, NY                                941                481               51%
      Regional Office Staff                       1                  1              100%

1
 See Appendix B for our methodology for identifying the four impairments we analyzed and the national
average allowance rates for each impairment.
                                                D-1
                              Table D-1
                         Disorders of Back
               National Average Allowance Rate – 70%
                           Number of      Number of    Allowance
       Location
                          Dispositions   Allowances       Rate
Philadelphia Region         44,089         28,887        66%
Charleston, WV               3,277          2,719        83%
Harrisburg, PA               2,718          2,081        77%
Baltimore, MD                3,030          2,289        76%
Huntington, WV               3,452          2,444        71%
Roanoke, VA                  3,108          2,159        69%
Washington, D.C.             1,757          1,200        68%
Wilkes-Barre, PA             3,604          2,437        68%
Richmond, VA                 1,418            944        67%
Pittsburgh, PA               3,370          2,214        66%
Elkins Park, PA              3,342          2,114        63%
Johnstown, PA                2,098          1,240        59%
Philadelphia, PA             1,988          1,157        58%
Cranberry, PA                  312            181        58%
Charlottesville, VA          2,528          1,463        58%
Morgantown, WV               2,168          1,214        56%
Norfolk, VA                  1,989          1,041        52%
Philadelphia-E, PA           2,369          1,204        51%
Dover, DE                    1,561            786        50%
Atlanta Region              95,172         69,399        73%
Birmingham, AL               4,271          3,713        87%
Greenville, SC               4,050          3,392        84%
Montgomery, AL               1,843          1,511        82%
Kingsport, TN                4,966          4,039        81%
Nashville, TN                3,217          2,588        80%
Chattanooga, TN              3,919          3,138        80%
Macon, GA                    2,303          1,811        79%
Atlanta-N, GA                2,637          2,003        76%
Louisville, KY               3,260          2,459        75%
Greensboro, NC               4,018          3,022        75%
Florence, AL                 2,336          1,748        75%
Mobile, AL                   3,392          2,537        75%
Tampa, FL                    5,375          3,957        74%
Paducah, KY                  2,246          1,644        73%
Memphis, TN                  2,508          1,800        72%
Atlanta, GA                  1,824          1,291        71%
Columbia, SC                 2,722          1,920        71%
Knoxville, TN                3,476          2,447        70%
Charlotte, NC                3,354          2,351        70%
Raleigh, NC                  3,611          2,531        70%
Charleston, SC               3,672          2,531        69%
Savannah, GA                 2,702          1,849        68%
Orlando, FL                  4,715          3,222        68%
Hattiesburg, MS              2,079          1,401        67%
                              D-2
                               Table D-1
                          Disorders of Back
                National Average Allowance Rate – 70%
                            Number of      Number of    Allowance
        Location
                           Dispositions   Allowances       Rate
Tupelo, MS                    1,806          1,215        67%
Jackson, MS                   1,360            901        66%
Middlesboro, KY               1,912          1,231        64%
Jacksonville, FL              4,030          2,577        64%
Fort Lauderdale, FL           2,910          1,822        63%
Lexington, KY                 3,801          2,260        59%
Miami, FL                       857            488        57%
Chicago Region               46,034         31,753        69%
Evanston, IL                  2,182          1,815        83%
Chicago, IL                   1,438          1,167        81%
Regional Office Staff            51             40        78%
Orland Park, IL               3,001          2,281        76%
Detroit, MI                   2,038          1,515        74%
Oak Brook, IL                 2,328          1,716        74%
Milwaukee, WI                 3,122          2,244        72%
Cincinnati, OH                3,212          2,303        72%
Flint, MI                     1,934          1,357        70%
Cleveland, OH                 2,722          1,904        70%
Fort Wayne, IN                2,237          1,546        69%
Grand Rapids, MI              2,287          1,572        69%
Minneapolis, MN               3,688          2,499        68%
Oak Park, MI                  2,400          1,615        67%
Madison, WI (Satellite)         662            442        67%
Columbus, OH                  2,603          1,677        64%
Indianapolis, IN              3,132          2,006        64%
Evansville, IN                1,595          1,012        63%
Lansing, MI                   1,753          1,097        63%
Peoria, IL                    1,699          1,063        63%
Dayton, OH                    1,950            882        45%
Dallas Region                43,778         29,379        67%
Regional Office Staff             7              6        86%
Albuquerque, NM               3,882          3,031        78%
Little Rock, AR               4,086          3,182        78%
Fort Smith, AR                2,006          1,545        77%
Tulsa, OK                     3,490          2,687        77%
Dallas-DT, TX                 4,053          2,894        71%
Oklahoma City, OK             3,066          2,183        71%
Houston-DT, TX                2,114          1,473        70%
Alexandria, LA                2,909          1,925        66%
McAlester, OK                   872            566        65%
Houston, TX                   3,040          1,896        62%
Metairie, LA                  1,335            829        62%
Dallas-N, TX                  3,006          1,810        60%
San Antonio, TX               3,840          2,232        58%

                               D-3
                              Table D-1
                         Disorders of Back
               National Average Allowance Rate – 70%
                           Number of      Number of    Allowance
       Location
                          Dispositions   Allowances       Rate
New Orleans, LA              1,583            912        58%
Fort Worth, TX               2,864          1,457        51%
Shreveport, LA               1,625            751        46%
Kansas City Region          14,630          9,565        65%
St. Louis, MO                2,769          2,247        81%
Regional Office Staff            5              4        80%
Omaha, NE                    1,454          1,003        69%
Wichita, KS                  1,855          1,216        66%
Creve Coeur, MO              3,578          2,282        64%
Springfield, MO              1,503            885        59%
West Des Moines, IA          1,597            892        56%
Kansas City, MO              1,869          1,036        55%
Denver Region               11,109          7,564        68%
Salt Lake City, UT           2,329          1,768        76%
Fargo, ND                    1,779          1,279        72%
Denver, CO                   3,312          2,194        66%
Billings, MT                 1,979          1,274        64%
Colorado Springs, CO         1,710          1,049        61%
San Francisco Region        33,507         22,032        66%
Santa Barbara, CA            1,003            822        82%
San Rafael, CA               1,305          1,034        79%
Sacramento, CA               3,750          2,855        76%
San Francisco, CA            1,481          1,123        76%
Las Vegas, NV                  785            589        75%
San Jose, CA                 1,555          1,162        75%
Oakland, CA                  1,326            963        73%
Honolulu, HI                   418            298        71%
Phoenix, AZ                  2,381          1,664        70%
Tucson, AZ                   2,168          1,488        69%
Orange, CA                   1,479            985        67%
San Diego, CA                2,528          1,587        63%
Stockton, CA                 1,900          1,151        61%
Los Angeles-W, CA            2,343          1,384        59%
Downey, CA                     852            499        59%
Los Angeles-DT, CA           1,157            645        56%
Long Beach, CA               1,561            868        56%
Fresno, CA                   2,017          1,106        55%
San Bernardino, CA           2,220          1,188        54%
Pasadena, CA                 1,278            621        49%
Seattle Region              10,257          7,430        72%
Spokane, WA                  2,442          2,046        84%
Seattle, WA                  3,453          2,479        72%
Eugene, OR                   2,133          1,435        67%
Portland, OR                 2,229          1,470        66%

                              D-4
                              Table D-2
                 Osteoarthrosis and Allied Disorders
               National Average Allowance Rate – 70%
                           Number of       Number of    Allowance
        Location
                          Dispositions     Allowances      Rate
Boston Region                  2,547         1,883         74%
Regional Office Staff             11            11        100%
Portland, ME                     295           244         83%
Manchester, NH                   347           279         80%
Boston, MA                       668           516         77%
Hartford, CT                     319           240         75%
Springfield, MA                  360           262         73%
New Haven, CT                    289           190         66%
Providence, RI                   258           141         55%
New York Region               7,904,         5,325         67%
Mayaguez, PR                      81            65         80%
Brooklyn, NY                     924           734         79%
Voorhees, NJ                     489           384         79%
Jericho, NY                      887           684         77%
Ponce, PR                        104            79         76%
San Juan, PR                     444           335         75%
Albany, NY                       560           395         71%
Bronx, NY                        443           298         67%
New York, NY                     834           549         66%
Newark, NJ                       688           441         64%
White Plains, NY                 470           282         60%
Syracuse, NY                     616           348         56%
Buffalo, NY                    1,036           563         54%
Queens, NY                       328           168         51%
Philadelphia Region          10,614          7,167         68%
Charleston, WV                   690           597         87%
Huntington, WV                   555           424         76%
Harrisburg, PA                   631           480         76%
Baltimore, MD                  1,228           916         75%
Wilkes-Barre, PA                 529           381         72%
Roanoke, VA                      658           458         70%
Washington, D.C.                 603           415         69%
Richmond, VA                     502           334         67%
Pittsburgh, PA                   758           498         66%
Morgantown, WV                   510           333         65%
Elkins Park, PA                  679           427         63%
Philadelphia, PA                 521           323         62%
Johnstown, PA                    443           272         61%
Cranberry, PA                     78            46         59%
Charlottesville, VA              747           436         58%
Norfolk, VA                      610           345         57%
Dover, DE                        300           168         56%
Philadelphia-E, PA               572           314         55%


                               D-5
                              Table D-2
                 Osteoarthrosis and Allied Disorders
               National Average Allowance Rate – 70%
                           Number of       Number of    Allowance
        Location
                          Dispositions     Allowances      Rate
Atlanta Region               21,887         16,321         75%
Greenville, SC                1,475          1,256         85%
Birmingham, AL                  987            839         85%
Kingsport, TN                   771            652         85%
Chattanooga, TN                 796            662         83%
Montgomery, AL                  478            394         82%
Nashville, TN                   544            443         81%
Macon, GA                       694            560         81%
Florence, AL                    493            387         78%
Knoxville, TN                   580            449         77%
Atlanta-N, GA                   726            562         77%
Memphis, TN                     616            461         75%
Orlando, FL                     708            528         75%
Mobile, AL                      763            567         74%
Greensboro, NC                1,290            954         74%
Paducah, KY                     416            305         73%
Louisville, KY                  723            529         73%
Raleigh, NC                   1,366            991         73%
Tampa, FL                       724            520         72%
Charlotte, NC                 1,196            858         72%
Tupelo, MS                      327            234         72%
Middlesboro, KY                 297            210         71%
Jackson, MS                     293            204         70%
Savannah, GA                    624            433         69%
Columbia, SC                  1,151            798         69%
Charleston, SC                  983            678         69%
Atlanta, GA                     607            410         68%
Fort Lauderdale, FL             420            274         65%
Jacksonville, FL                631            410         65%
Lexington, KY                   658            423         64%
Hattiesburg, MS                 353            213         60%
Miami, FL                       197            117         59%
Chicago Region               14,886         10,744         72%
Regional Office Staff            16             16        100%
Evanston, IL                    824            689         84%
Chicago, IL                     887            727         82%
Orland Park, IL                 951            762         80%
Detroit, MI                     678            520         77%
Flint, MI                       631            466         74%
Cincinnati, OH                  923            677         73%
Milwaukee, WI                   834            606         73%
Oak Brook, IL                   750            544         73%
Fort Wayne, IN                  754            543         72%
Cleveland, OH                 1,002            713         71%
Indianapolis, IN              1,203            855         71%
                               D-6
                              Table D-2
                 Osteoarthrosis and Allied Disorders
               National Average Allowance Rate – 70%
                           Number of       Number of    Allowance
        Location
                          Dispositions     Allowances      Rate
Minneapolis, MN                 804            570         71%
Evansville, IN                  483            336         70%
Grand Rapids, MI                726            504         69%
Columbus, OH                    793            540         68%
Lansing, MI                     556            378         68%
Oak Park, MI                    798            542         68%
Peoria, IL                      570            370         65%
Madison, WI (Satellite)         155             97         63%
Dayton, OH                      548            289         53%
Dallas Region                11,417          7,704         67%
Regional Office Staff             2              2        100%
Albuquerque, NM               1,061            847         80%
Tulsa, OK                       922            706         77%
Fort Smith, AR                  652            494         76%
Little Rock, AR               1,393          1,050         75%
Oklahoma City, OK               796            581         73%
Dallas-DT, TX                 1,099            781         71%
Alexandria, LA                  462            307         66%
Houston-DT, TX                  557            349         63%
New Orleans, LA                 241            149         62%
Dallas-N, TX                    862            528         61%
McAlester, OK                   277            169         61%
San Antonio, TX               1,055            642         61%
Houston, TX                     739            443         60%
Metairie, LA                    191            110         58%
Fort Worth, TX                  692            367         53%
Shreveport, LA                  416            179         43%
Kansas City Region            4,237          2,765         65%
St. Louis, MO                   798            657         82%
Omaha, NE                       358            249         70%
West Des Moines, IA             349            219         63%
Springfield, MO                 409            256         63%
Creve Coeur, MO               1,031            635         62%
Wichita, KS                     616            376         61%
Kansas City, MO                 676            373         55%
Denver Region                 2,187          1,511         69%
Salt Lake City, UT              479            383         80%
Fargo, ND                       410            298         73%
Billings, MT                    326            216         66%
Denver, CO                      658            427         65%
Colorado Springs, CO            314            187         60%
San Francisco Region          8,882          5,684         64%
Santa Barbara, CA               174            141         81%
San Rafael, CA                  332            248         75%
San Francisco, CA               343            253         74%
                               D-7
                             Table D-2
                Osteoarthrosis and Allied Disorders
              National Average Allowance Rate – 70%
                          Number of       Number of    Allowance
       Location
                         Dispositions     Allowances      Rate
Las Vegas, NV                  190            138        73%
Honolulu, HI                    80             58        73%
San Jose, CA                   317            229        72%
Oakland, CA                    449            322        72%
Sacramento, CA                 962            687        71%
Tucson, AZ                     459            315        69%
Orange, CA                     389            266        68%
Phoenix, AZ                    559            382        68%
San Diego, CA                  612            383        63%
Stockton, CA                   503            303        60%
Fresno, CA                     421            249        59%
Downey, CA                     367            217        59%
San Bernardino, CA             512            288        56%
Long Beach, CA                 524            292        56%
Pasadena, CA                   423            234        55%
Los Angeles-DT, CA             597            321        54%
Los Angeles-W, CA              669            358        54%
Seattle Region               2,080          1,531        74%
Spokane, WA                    528            435        82%
Portland, OR                   457            333        73%
Seattle, WA                    690            495        72%
Eugene, OR                     405            268        66%




                              D-8
                            Table D-3
                         Diabetes Mellitus
              National Average Allowance Rate – 67%
                          Number of      Number of    Allowance
        Location
                         Dispositions Allowances         Rate
Boston Region               1,394         1,003          72%
Regional Office Staff           3             3         100%
Manchester, NH                182           152          84%
Portland, ME                  134           105          78%
Boston, MA                    325           238          73%
New Haven, CT                 207           146          71%
Hartford, CT                  207           141          68%
Springfield, MA               207           140          68%
Providence, RI                129            78          60%
New York Region             3,424         2,124          62%
Ponce, PR                      21            16          76%
Voorhees, NJ                  287           214          75%
Albany, NY                    143           104          73%
San Juan, PR                   96            67          70%
Jericho, NY                   207           142          69%
Brooklyn, NY                  477           322          68%
Mayaguez, PR                   19            12          63%
Bronx, NY                     338           203          60%
Newark, NJ                    478           284          59%
Syracuse, NY                  254           148          58%
New York, NY                  475           275          58%
Buffalo, NY                   351           195          56%
White Plains, NY              143            77          54%
Queens, NY                    135            65          48%
Philadelphia Region         7,763         5,075          66%
Charleston, WV                531           468          88%
Harrisburg, PA                530           415          78%
Baltimore, MD                 716           527          74%
Huntington, WV                320           234          73%
Washington, D.C.              301           216          72%
Richmond, VA                  236           164          69%
Roanoke, VA                   371           250          67%
Wilkes-Barre, PA              487           328          67%
Elkins Park, PA               575           375          65%
Pittsburgh, PA                647           403          62%
Morgantown, WV                459           274          60%
Johnstown, PA                 347           205          59%
Charlottesville, VA           435           253          58%
Philadelphia, PA              502           284          57%
Cranberry, PA                  46            25          54%
Dover, DE                     230           124          54%
Norfolk, VA                   394           209          53%
Philadelphia-E, PA            636           321          50%

                              D-9
                            Table D-3
                         Diabetes Mellitus
              National Average Allowance Rate – 67%
                          Number of      Number of    Allowance
        Location
                         Dispositions Allowances         Rate
Atlanta Region             14,621        10,367         71%
Kingsport, TN                 426           360         85%
Macon, GA                     546           448         82%
Greenville, SC                356           292         82%
Birmingham, AL                674           537         80%
Chattanooga, TN               472           362         77%
Nashville, TN                 299           229         77%
Tampa, FL                     891           679         76%
Knoxville, TN                 328           249         76%
Paducah, KY                   294           223         76%
Atlanta-N, GA                 459           344         75%
Greensboro, NC                688           512         74%
Florence, AL                  336           250         74%
Montgomery, AL                440           316         72%
Mobile, AL                    598           428         72%
Charlotte, NC                 640           456         71%
Columbia, SC                  263           186         71%
Raleigh, NC                   707           497         70%
Memphis, TN                   460           320         70%
Atlanta, GA                   524           364         69%
Savannah, GA                  595           410         69%
Orlando, FL                   769           518         67%
Louisville, KY                365           243         67%
Charleston, SC                399           264         66%
Jackson, MS                   335           219         65%
Jacksonville, FL              676           434         64%
Tupelo, MS                    324           208         64%
Fort Lauderdale, FL           581           364         63%
Lexington, KY                 359           206         57%
Middlesboro, KY               177            99         56%
Miami, FL                     298           163         55%
Hattiesburg, MS               342           187         55%
Chicago Region              7,947         5,727         72%
Chicago, IL                   752           612         81%
Evanston, IL                  500           397         79%
Regional Office Staff           9             7         78%
Orland Park, IL               566           434         77%
Flint, MI                     233           173         74%
Fort Wayne, IN                383           284         74%
Cincinnati, OH                461           339         74%
Oak Park, MI                  415           301         73%
Grand Rapids, MI              406           293         72%
Detroit, MI                   399           286         72%
Columbus, OH                  381           272         71%
Lansing, MI                   265           189         71%
                              D-10
                            Table D-3
                         Diabetes Mellitus
              National Average Allowance Rate – 67%
                          Number of      Number of    Allowance
        Location
                         Dispositions Allowances         Rate
Minneapolis, MN               445           317         71%
Cleveland, OH                 547           387         71%
Evansville, IN                304           212         70%
Milwaukee, WI                 307           209         68%
Oak Brook, IL                 453           308         68%
Indianapolis, IN              444           289         65%
Peoria, IL                    341           219         64%
Madison, WI (Satellite)        58            37         64%
Dayton, OH                    278           162         58%
Dallas Region              10,745         6,853         64%
Tulsa, OK                     503           397         79%
Albuquerque, NM             1,017           774         76%
Fort Smith, AR                242           183         76%
Oklahoma City, OK             569           422         74%
Little Rock, AR               681           492         72%
Dallas-DT, TX               1,153           827         72%
Houston-DT, TX                642           405         63%
Alexandria, LA                468           291         62%
Regional Office Staff           5             3         60%
Houston, TX                   822           488         59%
New Orleans, LA               322           191         59%
San Antonio, TX             1,608           943         59%
Fort Worth, TX                788           439         56%
Metairie, LA                  219           120         55%
Dallas-N, TX                1,131           618         55%
McAlester, OK                 149            78         52%
Shreveport, LA                426           182         43%
Kansas City Region          2,298         1,509         66%
St. Louis, MO                 506           386         76%
Springfield, MO               186           132         71%
Omaha, NE                     230           154         67%
Wichita, KS                   225           148         66%
West Des Moines, IA           217           141         65%
Creve Coeur, MO               612           369         60%
Kansas City, MO               322           179         56%
Denver Region               1,451         1,004         69%
Salt Lake City, UT            296           241         81%
Colorado Springs, CO          222           158         71%
Fargo, ND                     200           136         68%
Denver, CO                    503           326         65%
Billings, MT                  230           143         62%
San Francisco Region        5,643         3,448         61%
Santa Barbara, CA             115            97         84%
San Rafael, CA                131           107         82%
Las Vegas, NV                 171           127         74%
                              D-11
                           Table D-3
                        Diabetes Mellitus
             National Average Allowance Rate – 67%
                         Number of      Number of    Allowance
       Location
                        Dispositions Allowances         Rate
San Jose, CA                 279           207         74%
Tucson, AZ                   312           217         70%
Sacramento, CA               399           272         68%
Oakland, CA                  201           136         68%
San Francisco, CA            229           154         67%
Orange, CA                   265           177         67%
Phoenix, AZ                  372           241         65%
San Diego, CA                419           253         60%
Downey, CA                   250           145         58%
Honolulu, HI                  73            42         58%
Fresno, CA                   333           182         55%
Los Angeles-DT, CA           396           215         54%
San Bernardino, CA           366           197         54%
Pasadena, CA                 309           164         53%
Los Angeles-W, CA            433           229         53%
Stockton, CA                 257           129         50%
Long Beach, CA               333           157         47%
Seattle Region             1,119           829         74%
Spokane, WA                  269           215         80%
Eugene, OR                   171           131         77%
Seattle, WA                  422           313         74%
Portland, OR                 257           170         66%




                             D-12
                            Table D-4
            Disorders of Muscle, Ligament, and Fascia
              National Average Allowance Rate – 65%
                          Number of    Number of      Allowance
        Location
                         Dispositions Allowances         Rate
Boston Region                2,807        2,047         73%
Regional Office Staff            2            2        100%
Portland, ME                   617          496         80%
Manchester, NH                 594          476         80%
Boston, MA                     466          351         75%
Hartford, CT                   278          208         75%
New Haven, CT                  195          128         66%
Springfield, MA                408          245         60%
Providence, RI                 247          141         57%
New York Region              3,149        2,025         64%
Jericho, NY                    197          165         84%
Mayaguez, PR                    42           34         81%
Voorhees, NJ                   152          118         78%
Ponce, PR                       57           43         75%
Brooklyn, NY                   213          159         75%
San Juan, PR                   245          182         74%
Bronx, NY                      174          124         71%
Albany, NY                     324          206         64%
Syracuse, NY                   345          219         63%
Newark, NJ                     252          148         59%
New York, NY                   314          184         59%
Queens, NY                      90           49         54%
Buffalo, NY                    547          294         54%
White Plains, NY               197          100         51%
Philadelphia Region          5,747        3,520         61%
Charleston, WV                 407          336         83%
Huntington, WV                 350          255         73%
Washington, D.C.               208          144         69%
Harrisburg, PA                 425          294         69%
Roanoke, VA                    413          276         67%
Wilkes-Barre, PA               396          261         66%
Baltimore, MD                  289          190         66%
Richmond, VA                   292          177         61%
Pittsburgh, PA                 360          206         57%
Cranberry, PA                   14            8         57%
Philadelphia, PA               273          156         57%
Elkins Park, PA                450          253         56%
Johnstown, PA                  258          144         56%
Charlottesville, VA            418          231         55%
Norfolk, VA                    373          189         51%
Morgantown, WV                 311          155         50%
Philadelphia-E, PA             308          148         48%
Dover, DE                      202           97         48%

                              D-13
                            Table D-4
            Disorders of Muscle, Ligament, and Fascia
              National Average Allowance Rate – 65%
                          Number of    Number of      Allowance
        Location
                         Dispositions Allowances         Rate
Atlanta Region              12,446        8,689         70%
Greenville, SC                 693          575         83%
Birmingham, AL                 445          368         83%
Nashville, TN                  361          297         82%
Kingsport, TN                  460          368         80%
Chattanooga, TN                441          346         78%
Montgomery, AL                 227          169         74%
Macon, GA                      298          221         74%
Tampa, FL                      842          617         73%
Knoxville, TN                  393          282         72%
Memphis, TN                    424          301         71%
Atlanta-N, GA                  297          210         71%
Greensboro, NC                 807          570         71%
Raleigh, NC                    726          505         70%
Orlando, FL                    557          385         69%
Mobile, AL                     406          276         68%
Charlotte, NC                  648          436         67%
Louisville, KY                 342          227         66%
Florence, AL                   200          132         66%
Tupelo, MS                     225          148         66%
Columbia, SC                   371          243         65%
Paducah, KY                    237          154         65%
Middlesboro, KY                188          122         65%
Atlanta, GA                    259          168         65%
Miami, FL                       59           38         64%
Hattiesburg, MS                204          131         64%
Charleston, SC                 585          359         61%
Fort Lauderdale, FL            225          138         61%
Jackson, MS                    190          116         61%
Savannah, GA                   427          259         61%
Lexington, KY                  476          277         58%
Jacksonville, FL               433          251         58%
Chicago Region               6,341        4,091         65%
Columbus, OH                     5            4         80%
Evanston, IL                   429          342         80%
Chicago, IL                    266          207         78%
Regional Office Staff            9            7         78%
Orland Park, IL                325          246         76%
Cincinnati, OH                 108           78         72%
Oak Brook, IL                  346          234         68%
Milwaukee, WI                  762          507         67%
Detroit, MI                    376          243         65%
Fort Wayne, IN                 172          108         63%
Minneapolis, MN                780          479         61%
Indianapolis, IN               316          192         61%
                              D-14
                           Table D-4
           Disorders of Muscle, Ligament, and Fascia
             National Average Allowance Rate – 65%
                         Number of    Number of      Allowance
       Location
                        Dispositions Allowances         Rate
Flint, MI                     454          275         61%
Grand Rapids, MI              404          244         60%
Oak Park, MI                  524          315         60%
Dayton, OH                      5            3         60%
Evansville, IN                195          115         59%
Peoria, IL                    327          187         57%
Madison, WI (Satellite)       205          117         57%
Lansing, MI                   326          186         57%
Cleveland, OH                   7            2         29%
Dallas Region               5,577        3,591         64%
Regional Office Staff           1            1        100%
Albuquerque, NM               844          637         75%
Fort Smith, AR                393          290         74%
Little Rock, AR               932          672         72%
Tulsa, OK                     360          258         72%
Dallas-DT, TX                 417          270         65%
Alexandria, LA                225          138         61%
Houston, TX                   337          205         61%
Oklahoma City, OK             278          164         59%
Houston-DT, TX                252          147         58%
Dallas-N, TX                  335          191         57%
Metairie, LA                   65           37         57%
San Antonio, TX               468          264         56%
McAlester, OK                  78           42         54%
New Orleans, LA               113           55         49%
Shreveport, LA                157           73         46%
Fort Worth, TX                322          147         46%
Kansas City Region          2,972        1,788         60%
St. Louis, MO                 489          361         74%
Omaha, NE                     360          252         70%
Springfield, MO               358          216         60%
Wichita, KS                   341          205         60%
Creve Coeur, MO               638          374         59%
West Des Moines, IA           360          178         49%
Kansas City, MO               426          202         47%
Denver Region               2,017        1,242         62%
Fargo, ND                     508          331         65%
Billings, MT                  334          212         63%
Salt Lake City, UT            163          102         63%
Denver, CO                    691          423         61%
Colorado Springs, CO          321          174         54%
San Francisco Region        9,956        6,083         61%
Santa Barbara, CA             282          221         78%
Las Vegas, NV                 158          117         74%
San Rafael, CA                384          282         73%
                             D-15
                           Table D-4
           Disorders of Muscle, Ligament, and Fascia
             National Average Allowance Rate – 65%
                         Number of    Number of      Allowance
       Location
                        Dispositions Allowances         Rate
San Francisco, CA             524          370         71%
Sacramento, CA                841          589         70%
San Jose, CA                  566          395         70%
Honolulu, HI                  120           83         69%
Oakland, CA                   844          566         67%
Tucson, AZ                    459          302         66%
Phoenix, AZ                   588          364         62%
Stockton, CA                  507          307         61%
Orange, CA                    561          332         59%
San Diego, CA                 771          444         58%
Fresno, CA                    595          336         56%
Los Angeles-W, CA             610          322         53%
Downey, CA                    257          133         52%
Los Angeles-DT, CA            348          179         51%
San Bernardino, CA            667          342         51%
Long Beach, CA                475          231         49%
Pasadena, CA                  399          168         42%
Seattle Region              2,113        1,411         67%
Spokane, WA                   486          391         80%
Seattle, WA                   697          452         65%
Eugene, OR                    420          258         61%
Portland, OR                  510          310         61%




                             D-16
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      July 30, 2010                                                         Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor
            to the Commissioner

Subject:   Office of the Inspector General Draft Report, "Disability Impairments on Cases Most Frequently
           Denied by Disability Determination Services and Subsequently Allowed by Administrative Law
           Judges" (A-07-09-19083)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. Please see the attached
           response to your findings and recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at (410) 966-6975.

           Attachment




                                                         E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“DISABILITY IMPAIRMENTS ON CASES MOST FREQUENTLY DENIED BY
DISABIITY DETERMINATION SERVICES AND SUBSEQUENTLY ALLOWED BY
ADMINISTRATIVE LAW JUDGES” (A-07-09-19083)


We offer the following comments:

General Comments

At the beginning of the report you state, “The objective of our review was to identify the
impairments of initial disability cases most frequently allowed at the Office of Disability
Adjudication and Review’s (ODAR) hearing level and evaluate the characteristics of these
cases.” Throughout the report, you then present a large amount of information and in several
places say there are wide variations in the statistical data you compiled. You do not say
explicitly that one may draw any conclusions from the numbers, but the overwhelming amount
of data you present may lead the average reader to erroneously conclude otherwise.

Much of the data you present in the report is very familiar to us. For example, we are well aware
that administrative law judges (ALJ) allow a high percentage of disability determination
services’ (DDS) denials. On page 3, you acknowledge that we explained some of the factors that
influence those ALJ decisions. We can also explain the reasons for some of the other variances,
but not for each one you cite. In any statistical study, there will likely be some degree of
variability in the results, but variability does not necessarily pinpoint problems. Our Office of
Quality Performance (OQP) analyzes raw data in a manner similar to the approach used.
However, OQP refines its analyses, assesses whether there may be problems, and then targets
studies to areas that deserve the most attention. OQP routinely uses these methods to assess
program integrity.

You state several times that you will be doing additional audit work based on your findings. For
example on page 4 you say, “We plan to initiate an audit that will further evaluate the impact
claimant age has on disability determinations at the DDS and hearing levels. At that time, we
will make recommendations, as appropriate.” The term “further evaluate” is a common theme
throughout, and we believe it supports our opinion that the audit report itself does little more
than lay the groundwork for more substantive audits you may conduct in the future. Again, we
recognize that you do not necessarily draw conclusions from the data. You even make the point
on page 13, “We are not suggesting that the variances in allowance rates among hearing offices
and ALJs resulted in inaccurate hearing level decisions.” But you make this important point only
once about a single situation, and it is at the very end of the report. We believe you should
explain on page 1 under “Objective” that your audit represents preliminary work, forms a basis
for future reviews, and the reader should not infer any conclusions from the data.




                                               E-2
Page and Paragraph/Sentence Specific Comments

Page 6, 3rd paragraph, first sentence reads:

“If claimants with the four impairments we analyzed had representatives earlier in the disability
process, some of them may have received an allowance decision at the DDS level, saving them
time and SSA money.”

Comment

You do not substantiate that increased claimant representation at the DDS level would result in
more allowances. Adding representation to the DDS level does not remove the differences that
exist at the hearing level. Given the time between the initial application and the hearing, it is
common for an applicant’s impairment to become more severe thereby further limiting residual
functional capacity (RFC). Representation is effective at the ALJ level because of the de novo
hearing processes in play. In such an environment, the representative can serve as a facilitator in
obtaining additional evidence and eliciting appropriate testimony at the hearing to ensure that the
ALJ addresses the claimant’s due process, allegations of disability, and other interests. On
page 5, you state that ALJs use vocational experts to assess RFC. That statement is inaccurate.
ALJs determine RFC and present that information to a vocational expert to determine whether
jobs exist in the national economy that the claimant could perform given that RFC and other
factors.

In reviewing the factors such as claimant representation that you used to conduct your
assessment (as well as those listed in Appendix C, which you did not use), we are surprised that
you did not thoroughly address RFC. Under the de novo concept, ALJs can reassess the
evidence that was before the DDS. Nowhere is this impact greater than with RFC assessment.
About 80 percent of ALJ allowances are medical-vocational in nature, thereby requiring an RFC
assessment (including many musculoskeletal impairments -- three of the four impairments in
your report are musculoskeletal impairments). With most cases in this category, ALJs will often
find that a claimant has an RFC that is more limited than the one found by the DDS. This is one
factor that contributes to allowances at the hearing level.

Page 10, Table 5

Comment

You identify Alabama as one of the six States with denial rates and hearing level allowances
greater than the national averages. You should include a footnote that the Alabama DDS is a
“prototype State,” as such, claimants can appeal directly to the hearing level and bypass the DDS
reconsideration step. This affects allowance rates.

We conducted a “prototype data analysis” and examined the effect that prototype implementation
has had on overall allowance rates and ODAR appeals. The report compares DDS allowance
rates to the national average; however, there are a number of economic and demographic factors
that may invalidate comparison across States and regions. As noted above, we are familiar with


                                              E-3
much of the data you present in your report. In fact, we have studied this issue in particular. In
2002, our Office of Research, Evaluation, and Statistics conducted a study on consistency among
disability allowance rates. In the study, we concluded that the variations in allowance rates were
related to certain demographic and economic differences among States. You may access the
study at: http://ssa.gov/policy/docs/workingpapers/wp98.pdf)

In addition, our Office of Disability Programs conducted a study of allowance rates for fiscal
years (FY) 2001 through FY 2009 and determined it is misleading to make overall State
comparisons. Reasons for that determination include:

   •   Allowance rates vary across Title types.

           o Title II initial claims have an allowance rate that is about 10 percentage points
             above the overall average, while concurrent Title II/XVI initial claims have an
             allowance rate that is about 10 percentage points below the overall average.

           o Title XVI initial adult claims have allowance rates several points below the
             overall average, while Title XVI children allowances are above the overall
             average.

   •   Initial disability claims workloads vary significantly by Title type (II, XVI adult or child,
       and concurrent II/XVI) from State to State.

   •   The rate of filing per age-eligible population for Title II, Title XVI adult or child, and
       concurrent Title II/XVI initial claims varies widely from State to State.

Because so many factors can affect decisions, we do not expect States to conform to any
specified allowance rates. Claims accuracy and timely decisions are key components of good
public service, and the DDSs work hard to issue sound decisions.

Note: Net accuracy in the Atlanta region, where five of six States you identify are located, is
higher than the national average. This underscores the fact these States are making proper
decisions.

Comments on Recommendations

Recommendation 1

Collect information related to claimant representation at the DDS level to determine whether
representation results in more allowances at the DDS level. Based on the results of that
assessment, determine whether additional efforts are needed to ensure claimants are made aware
of the availability of claimant representation at the DDS level.




                                               E-4
Comment

We agree. We may not produce reports that provide this information; however, we collect data
regarding the claimant’s representation via the Electronic Disability Collect System and store it
in a database. We will review this information to assess if our field offices need to make
additional efforts to ensure claimants are made aware of the availability of claimant
representation at the DDS level. In the meantime, our offices are required under the Social
Security Act and regulations to inform the claimant of his or her right to representation and to
process the representative’s fee arrangements. Field Offices routinely inform claimants of the
right to representation through various communication methods, including interviews and
notices. State DDSs, however, are under no legal requirement to do so. We suggest that you
acknowledge this fact in the final report.

Finally, it has been our experience that claimants do not appoint a representative until we issue
an initial denial letter. As we discussed above, one of the DDSs included in the review,
Alabama, is a prototype State. The prototype process includes making initial determinations but
not reconsideration determinations. Therefore, claimant representation in prototype DDSs, such
as Alabama, would be unlikely.

Recommendation 2

Consider conducting a targeted review of disability determinations made in the six States we
identified as having higher than average DDS denial rates and hearing level allowance rates for
the four impairments we analyzed.

Comment

We agree. However, we will perform a quality review to determine the accuracy rates for the
four specific impairment codes that you used in the six specific States identified in your draft
report.

Recommendation 3

Consider analyzing variances between the hearing offices and ALJs with high and low allowance
rates for the four impairments we analyzed to determine whether factors are present that support
the variances.

Comment

We agree. The Appeals Council plans to begin quality review of unappealed, favorable ALJ
decisions later in FY 2010. For purposes of the quality review, the Appeals Council plans to
capture structured data that may lay the foundation for such an analysis. Based on the
anticipated sample size, data sufficient for a reliable analysis will be limited to regional study
and will likely not be available for over a year.




                                               E-5
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division
   Tonya Eickman, Audit Manager

Acknowledgments

In addition to those named above:

   Shannon Agee

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-07-09-19083.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
